<html>
<title> - AIR QUALITY AND CHILDREN'S HEALTH</title>
<body><pre>[Senate Hearing 112-948]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-948

                   AIR QUALITY AND CHILDREN'S HEALTH

=======================================================================


                              JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                AND THE

   SUBCOMMITTEE ON CHILDREN'S HEALTH AND ENVIRONMENTAL RESPONSIBILITY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 8, 2011

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works
                                 
                                 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                 



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
21-143PDF                         WASHINGTON : 2017                       
                              
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  
                              
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York
       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JOHN BARRASSO, Wyoming
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)
                                 ------                                

   Subcommittee on Children's Health and Environmental Responsibility

                    TOM UDALL, New Mexico, Chairman
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California, (ex       JAMES M. INHOFE, Oklahoma, (ex 
    officio)                             officio)

                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 8, 2011
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     4
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     5
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     6
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     9

                               WITNESSES

Upson, Dona J., M.D., M.A., Pulmonary/Critical Care Physician....    11
    Prepared statement...........................................    13
Responses to additional questions from:
    Senator Boxer................................................    28
    Senator Carper...............................................    30
    Senator Vitter...............................................    33
Ginda, James E., M.A., RRT, AE-C, CHES, Supervisor of Respiratory 
  Care, Kent Hospital............................................    36
    Prepared statement...........................................    38
    Response to an additional question from Senator Carper.......    61
    Responses to additional questions from Senator Vitter........    63
Goodman, Julie E., Ph.D., Dabt, Principal, Gradient..............    70
    Prepared statement...........................................    72
Thorning, Margo, Ph.D., Senior Vice President, American Council 
  for Capital Formation..........................................    76
    Prepared statement...........................................    78
Resnik, Patty, RTT-NPS, MBA, FACHE, CPHQ, CPUR, Corporate 
  Director, Performance Improvement/Utilization Management, 
  Christiana Care Health System..................................    87
    Prepared statement...........................................    89

 
                   AIR QUALITY AND CHILDREN'S HEALTH

                              ----------                              


                        WEDNESDAY, JUNE 8, 2011

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
       Subcommittee on Children's Health and Environmental 
                                            Responsibility,
                                                    Washington, DC.
    The committees met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Thomas Carper 
(chairman) presiding.
    Present: Senators Carper, Inhofe, Lautenberg, Cardin, 
Whitehouse, Udall, Vitter, Barrasso.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, one and all. The hearing will 
come to order.
    We want to welcome all of our witnesses. Thank you for 
joining us today, for your preparation and your willingness to 
respond to our questions.
    We don't get to do this every day, I am delighted to be 
here with our friend, Senator Tom Udall. We are going to have 
this joint hearing today to review the impacts of air pollution 
on children's health in the United States of America.
    Senators will have roughly 5 minutes for their opening 
statements. I will then recognize our panel of witnesses and we 
will ask each of you to use about 5 minutes for your opening 
statements, too. Your entire statement will be made part of the 
record. So if you could summarize and try to keep within that 
time constraint, that would be good. And after the panel's 
statements, we will have maybe two rounds of questions.
    We are reminded today, as the temperatures approach 100 
degrees here in our Nation's capital that summer is here. That 
means kids, I don't know today, are kids outside swimming? If 
there is a swimming pool around they will be there. But playing 
baseball and eating barbecue on the patio, maybe inside in the 
air conditioning. But in many parts of our Country, summer also 
means smog and exposure to deadly air pollution.
    The summer smog season, also known as the ozone season, is 
a powerful reminder of how important it is to have clean air to 
breathe. Smog-causing air pollution from dirty power plants, 
from automobiles and other sources, is linked to serious health 
problems, like asthma, like strokes, like heart attacks, and 
even early deaths.
    Smog is especially dangerous, as we know, for our children. 
Parents who have watched their kids with asthma suffer on high 
ozone days know this better than anyone. And some of them are 
here today.
    Unfortunately, smog is not all we have to be concerned 
about when it comes to our children's health. Millions of our 
kids ride a bus to school, play on a playground or live in a 
community that exposes them to high levels of ozone, to 
particle pollution or air toxics, all of which can severely 
impact children's health. In fact, nearly all air pollution is 
more dangerous to our children than to their parents for three 
primary reasons. One, the immune systems of children are still 
developing. And two, they breathe in more air in proportion to 
their body size than do their parents. And three, they are more 
likely to be outside for longer periods of time during the 
summer, exposing them to more air pollution.
    As a parent myself of two boys, now grown, I have spent a 
lot of time worrying about our own children's health. As a U.S. 
Senator, I also worry about every child's health. That is why I 
have worked hard with my colleagues, Democrat and Republican 
alike, to make sure that all of our children have clean air to 
breathe, that is free of all types of air pollution.
    And we have made remarkable progress in cleaning up our 
air, especially in some parts of our Country. But if truth be 
told, we still have a long way to go in many other parts of 
America. More than 7 million American children have asthma, 
including nearly 28,000 in Delaware. Childhood asthma rates are 
still rising.
    In fact, in Delaware alone, each of our three counties 
received a failing grade from the American Lung Association for 
the number of high pollution days they have experienced. For 
me, that is just more than disappointing, it is almost heart-
breaking. I am not too old to remember one of the great things 
about being a kid, especially in summer, was getting to run and 
play outside. In fact, I still love to run distances with my 
oldest son, 22 years old. And even though he runs me into the 
ground, few things are better than that.
    But kids with asthma get left behind on poor air quality 
days. Frequently they have to give up fun as well as healthy 
exercise. They often have to restrict their most basic daily 
activities. Moreover, those kids may have to miss school. Their 
parents may have to miss work. And all the while, health care 
costs in America, already the highest in the world, continue to 
rise.
    Those costs add up to trillions of dollars lost every year 
in this Country. That is not millions; that is not billions; 
that is trillions with a T. The Environmental Protection Agency 
is now considering what I think are sensible rules to reduce 
smog-causing pollution as well as particle pollution, mercury 
pollution and other harmful air toxics. For example, reduce air 
toxic regulation for utilities would limit emissions of known 
toxics that affect the development of a child's brain or 
nervous system or affect the way a child's body develops. These 
rules can give us all cleaner air while reducing those 
pollutants that will help prevent a wide variety of health, 
serious health threats to our children.
    And in the end, we stand to achieve better health care 
results for less money. That si right, better health care 
results for less money. It is my hope that today's witnesses 
will provide us with new information and insights on what our 
Federal Government is doing well and maybe what we are not 
doing so well, so we can enhance the quality of our Nation's 
air and protect the health and welfare of their systems, 
especially our Nation's children.
    Five minutes, on the money. Senator Udall, match that. 
Thank you. Oh, sorry, Jim, I got carried away, John, I got 
carried away. You are on.
    [The prepared statement of Senator Carper follows:]

           Statement of Hon. Thomas R. Carper, U.S. Senator 
                       from the State of Delaware

    Summer is here, and that means kids outside swimming, 
playing baseball, and eating bar-b-que on the patio. But in 
many parts of our country, summer also means smog and exposure 
to deadly air pollution.The summer smog season--also known as 
the ozone season--is a powerful reminder of how important it is 
to have clean air to breathe.
    Smog-causing air pollution from dirty power plants, 
automobiles, and other sources is linked to serious health 
problems like asthma, strokes, heart attacks--and even early 
deaths. Smog is especially dangerous for our children. Parents 
who have watched their kids with asthma suffer on high ozone 
days know this better than anyone.
    Unfortunately, smog is not all we have to be concerned 
about when it comes to our children's health. Millions of our 
kids ride a bus to school, play on a playground or live in a 
community that exposes them to high levels of ozone, particle 
pollution or air toxics--all of which can severely impact 
children's health.
    In fact, nearly all air pollution is more dangerous to our 
children than to their parents for three primary reasons:

    1. Their immune systems are still developing;
    2. They breathe in more air in proportion to their body 
size than do their parents; and,
    3. They are more likely to be outside for longer periods of 
time during the summer, exposing them to more air pollution.

    As a parent, I've spent a lot of time worrying about my own 
children's health. As a U.S. Senator, I worry about every 
child's health. That's why I've worked so hard with my 
colleagues--Democrat and Republicans alike--to make sure that 
all our children have clean air to breathe, air that's free of 
all types of air pollution. We have made remarkable progress in 
cleaning up our air, especially in some parts of our country, 
but--if truth be told--we still have a long way to go in many 
parts of America.
    More than 7 million American children have asthma--
including nearly 28,000 in Delaware--and childhood asthma rates 
are still rising. In fact, in Delaware alone, each of our three 
counties received a failing grade from the American Lung 
Association for the number of high pollution days they have 
experienced. That's more than disappointing to me. It's almost 
heartbreaking. I'm not too old to remember that one of the 
great things about being a kid is getting to run and play 
outside. In fact, I still love to run distances with my oldest 
son who's now 22 years old. Few things in life are better.
    But kids with asthma get left behind on poor air quality 
days. Frequently, they have to give up fun as well as healthy 
exercise. They often have to restrict their most basic daily 
activities. Moreover, those kids may have to miss school. Their 
parents may have to miss work. And, all the while, health care 
costs in America--already the highest in the world--continue to 
rise. Those costs add up, too, to trillions of dollars lost 
every year in this country. That's not millions. It's not 
billions. It's ``trillions'' with a ``t.''
    The Environmental Protection Agency is now considering 
sensible rules to reduce smog-causing pollution, as well as 
particle pollution, mercury pollution and other harmful air 
toxics. For example, recent air toxic regulations for utilities 
would limit emissions of known toxics that affect the 
development of a child's brain or nervous system or affect the 
way a child's body develops.
    These rules can give us all cleaner air, while reducing 
these pollutants will help prevent a wide variety of serious 
health threats to our children. And, in the end, we stand to 
achieve better health care results for less money. That's 
right. Better results for less money. It is my hope that 
today's witnesses will provide us with new information and 
insights on what our Federal Government is doing well--and not 
doing well--so we can enhance the quality our nation's air and 
protect the health and welfare of our citizens, especially our 
nation's children.
    Thank you.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    We truly have a number of concerns and problems that we 
need to address in this Country. The most important problem 
facing America today, in my opinion, is actually high 
unemployment and a weak economy. Clean air is always important, 
and at times it has been paramount. The EPA of preceding 
generations fought the obvious pollution that was visible in 
our cities. It was a crisis, and thanks to the hard work of the 
EPA, that challenge was answered.
    America's air now is cleaner than ever before. According to 
the EPA, over the last 30 years, carbon monoxide is down 61 
percent, lead is down 97 percent, nitrogen oxide is down 48 
percent, sulfur dioxide down 65 percent, particulate matter 
number 10 is down 83 percent. Today, the crisis is the economy 
and jobs. Unemployment is 9.1 percent. That means over 9 
percent of Americans who want to work can't find an employer. 
Millions of Americans are unemployed, looking for work to 
provide for their families. Many families with children are 
sliding into poverty, as their bills pile up.
    So I believe that our job in the Senate is to make sure 
things don't get worse and make sure that we create an economic 
environment where things actually can get better.
    Yet today's EPA is unleashing a cascade of intersecting 
regulations that continues to drop a hammer on an already 
faltering economy. For example, the EPA's proposed ozone 
standard alone, according to the EPA's own numbers, will cost 
up to $90 billion per year in compliance costs by the year 
2020. I didn't believe it, I rechecked the statistics twice 
that came out of the EPA. Ninety billion dollars a year in 
compliance costs by the year 2020.
    Most of the counties in our Nation will be in violation of 
the law if these strictest standards being proposed are adopted 
by the EPA. Economic activity in these counties across the 
Country that are in violation will grind to a halt. These areas 
will be closed to many new types of businesses or expansion of 
existing businesses that are manufacturing-intensive. This will 
occur because potential employers will not want to do business 
in these communities where the EPA is the gatekeeper in moving 
forward with any economic activity. The result will be jobs 
leaving the heartland of our Country to go to India or to 
China. These are the very types of jobs that we need so 
desperately.
    Children's health is always important. The future of 
children depends on their parents' ability to put food on the 
table, keep the lights on, support their education and their 
medical costs. In order to accomplish this, two key things are 
important. I believe children are best served when their 
parents have good paying jobs with benefits. I believe also 
that families benefit when they have affordable energy. Energy 
costs are taking up a larger share of household income, and it 
is often those most in need who are bearing the burden.
    According to the U.S. Department of Energy, on average 
Americans spend 5 percent of their income on paying energy 
bills. However, for lower income households, the costs average 
18 to 20 percent and can be higher than that. High energy costs 
will result from the regulatory freight train of EPA 
regulations coming down the track. The net result will be the 
closing of some of America's affordable power plants and 
replacing them with more expensive power. Other plants will 
make costly upgrades and pass those costs on to families. This 
has already begun to occur.
    Most recently, Louisville Gas and Electric in Kentucky has 
filed for a 19 percent rate increase by 2016 to pay for the 
upgrades that the EPA regulations will require. Those high 
costs will be passed right to the families with children who 
can afford it the least.
    According to the National Center for Health Statistics, 
American children in poverty are 3.6 times more likely than 
non-poor children to have poor health and five times more 
likely to die from an infectious disease. When we talk about 
children's health, we need to talk about their families' 
economic situation and economic well-being. The health of those 
children and their future depends upon the families' economic 
well-being.
    I think we need to focus on making America's air as clean 
as we can as fast as we can. And let us do it in a way that 
doesn't hurt American families during this economic situation. 
I thank you, Mr. Chairman, and look forward to the testimony.
    Senator Carper. Thank you, Senator Barrasso.
    Senator Udall, welcome. Thanks for letting us do this with 
you today.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. This is a real pleasure doing this jointly 
with you.
    Senator Carper. I call it a cheap thrill.
    [Laughter.]
    Senator Udall. Cheap thrill, right.
    First, let me thank all of our witnesses and welcome 
everyone to the first meeting of the Subcommittee on Children's 
Health this year. I am pleased to be joining Chairman Carper 
for his joint subcommittee hearing on the important issue of 
air quality and children's health.
    I would like to give a special welcome to Dr. Dona Upson, 
who has taken time off from her important job treating patients 
to travel all the way here from Albuquerque, New Mexico. It is 
good to have you here, and I know that you are a busy 
pulmonologist, so I know you have given up some important 
things to be here.
    As her testimony indicates, she is testifying on behalf of 
the American Lung Association and the American Thoracic 
Association. It is always sound advice to listen to your 
doctor. While her testimony here today is not connected with 
her official duties, I want to make sure to thank her for her 
service treating veterans at the New Mexico Veterans Medical 
Center.
    I think it is important to note that she also has valuable 
experience in air quality policy as a member of the Albuquerque 
Bernalillo Air Quality Board.
    We have asked our panel to testify here today about the 
current State of medical and scientific evidence regarding air 
pollution and children's health. The last major revision to the 
Clean Air Act was in 1990. And the various standards from the 
Act have been gradually implemented since then. Some standards 
required by that Act, such as air toxics standards, are only 
now being proposed over 20 years later. Other standards, like 
ground level ozone, are coming up for an update to reflect the 
best scientific information.
    In the Four Corners region in the west, EPA is moving 
forward with a regional haze air quality standard for large 
power plants. We are following those efforts carefully. 
Following the Supreme Court's 2007 decision, EPA is also 
charged with setting standards on global warming pollution for 
large emitters. Earlier this year, the House passed a budget, 
which would have blocked or delayed several of these air 
pollution standards. And the Senate voted against that 
proposal.
    During the last few months, my office has received hundreds 
and hundreds of emails and calls in support of the Clean Air 
Act. Several emails were from constituents and parents of 
children with asthma, with deep concern about the impact of 
those proposals on their lungs. Media reports indicate that 
further legislation is being drafted in both the House and the 
Senate. These bills would block or delay not only the global 
warming pollution standards, but also other standards as well.
    This hearing will provide an opportunity for members and 
the public to hear from public health professionals about the 
impacts of air pollution on children's health. And with that, 
Chairman Carper, I look forward to the testimony of the 
witnesses. Thank you.
    Senator Carper. Thanks. I am happy to be here to be your 
wing many today.
    Senator Inhofe, please.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman. It is nice to have 
you back, Dr. Thorning. We have imposed upon you quite a bit. 
And we hope, Dr. Upson, that the fires don't reach New Mexico. 
It is a real tragedy, what is going on there.
    I think we all agree that we are concerned with children's 
health. I should have brought my own chart. These are my 20 
kids and grandkids, so that is my concern. So I have that 
concern.
    I think one of the concerns that we have up here, and I 
agree with what Senator Barrasso said, we have these hearings, 
and they seem to be hearings focusing on the issues that this 
Administration has. And I think when you look at what the 
Administration has been doing, all this over-regulation and the 
cost of which I am sure we will get to in the testimony of Dr. 
Thorning, it comes to the conclusion that this Administration, 
by their own admission, wants to increase the price of energy 
that is out there today.
    Steven Chu said, somehow we have got to figure out how to 
boost the price of gasoline to the levels of those in Europe. 
He is the Energy Secretary for this President. I think the idea 
is so unbelievable to normal people, when you get out of 
Washington, DC, and get back home and talk to them, it is mind-
boggling. The advocates of the agenda hope that strict 
regulations can be used to choke off traditional energy 
sources. We see this, we see this every day. Over the past 2 
years, the EPA has moved forward with an unprecedented number 
of rules that will have enormous consequences on families and 
businesses and the Nation's fiscal well-being.
    It wasn't long about, about 8 months ago, that the CRA, 
that is congressional Review Act, came out with a study. No one 
questioned it, everyone agrees it is accurate, and that is that 
America, the United States of America, has the greatest 
reserves in oil, coal and gas of any country in the world. Our 
problem is we are the only country that won't develop our own 
resources. That is the concern that we have and I have for the 
future generations. I think we will get around to this, because 
people are now realizing that over-regulation does come with a 
cost.
    I listened carefully as Senator Barrasso talked about some 
of the costs. I would like to share those and have them as a 
part of this record. Incidentally, I am going to ask that my 
entire statement, along with the four pages of subsequent 
material, be made a part of the record.
    Senator Carper. Without objection, so ordered.
    Senator Inhofe. The greenhouse gas regulations, we are 
looking at a cost, a potential cost to the American people 
annually of between $300 billion and $400 billion dollars. This 
is something that came from the Wharton Econometric Survey, MIT 
and others. The ozone, it is true, what Senator Barrasso said 
about the $90 billion in compliance. But in addition to that, 
it is $676 billion in loss of GDP by 2020.
    The Boiler MACT is another one that would be a hardship on 
all manufacturing. I am sure we will hear from Dr. Thorning 
about that. Utility MACT, $184 billion in compliance costs 
between 2011 and 2030. The Cement MACT--now, these have all 
been fortunately postponed for a short period of time. I hope 
that is an indication that the Administration realizes that we 
have economic problems enough without imposing more economic 
problems on our Country.
    So with that, I am going to go ahead--oh, one last thing. 
In the oil and gas end of it, I thought it was interesting when 
President Obama gave his energy speech and I gave a response on 
one of the television stations, and he had said, we have this 
abundance of clean, inexpensive natural gas, right here in our 
Country. Then at the end of his speech, he said, we have to 
watch these procedures, such as hydraulic fracturing. Well, 
everybody knows that in these tight formations that they have 
right now, there is no way of getting out any of that without 
using hydraulic fracturing. Since I am from Oklahoma, we did 
the first hydraulic fracturing job in Oklahoma in 1948. There 
has never been one documented case of groundwater contamination 
as a result of that.
    So it just seems to me that those things that sound good to 
the public always have a little caveat. We are going to be 
watching very closely from this Committee. I am hoping that the 
Committee meeting next week, where we are going to have 
Administration officials, will be able to get into a lot of 
these things as to what is motivating them to pass these 
regulations and try to impose these regulations, keeping in 
mind, whether it is the Clean Water Restoration Act, whether it 
is cap and trade, these are things that they are trying to do 
through the Administration, since they can't get it done 
through legislation.
    Certainly I would say to my good friend, Senator Udall, 
that when he talked about the fact that we have all these 
things with cap and trade and greenhouse gases and global 
warming and all that, we have had several votes. I think the 
wisdom of the Senate is that not more than 30 members of a 100-
member Senate will vote to impose that type of cap and trade 
and those restrictions that would damage our economy.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Today's subcommittee hearing is the third in a series of 
hearings designed to prop up the Obama EPA's aggressive 
regulatory regime. This hearing nominally focuses on air 
quality and children's health. But there is no question that we 
all support clean air and that we all care for the well-being 
of children.
    Taken at face value, one might assume the Obama EPA has 
only the public good in mind. But the truth about Obama's 
regulatory agenda is inescapable: it's designed make the energy 
we use more expensive.
    But don't take my word for it. The Energy Secretary Stephen 
Chu said in 2008, ``[s]omehow we have to figure out how to 
boost the price of gasoline to the levels in Europe'' and don't 
forget that the President himself stated that under his cap-
and-trade plan ``electricity prices would necessarily 
skyrocket.''
    Advocates for this agenda hope that strict regulations can 
be used to choke off traditional, American energy so that 
prices will increase to the point that ``green'' energy is the 
only alternative. But these green subsidies are undermining the 
economy and hurting working families.
    Over the past 2 years, EPA has moved forward with an 
unprecedented number of rules that will have enormous 
consequences for families, businesses, and the nation's fiscal 
well-being. Known as the ``EPA train wreck,'' this regulatory 
agenda is driving energy costs up, and hitting those who can 
least afford it--the working poor, the elderly, and veterans--
the hardest.
    Take for example, EPA's new greenhouse gas (GHG) cap and 
trade regulations. EPA admits they will have no impact on 
global temperatures, yet they will come at an estimated cost of 
$300 to $400 billion annually. The Agency's voluntary 
reconsideration of the national ambient air quality standards 
for ground-level ozone--a decision based on outdated data that 
could lead to significant economic constraints on the country--
is another Agency action of dubious merit. EPA projects the 
cost of this rule could rise to $90 billion. Meanwhile, the 
agency is planning to tighten the standards again in just 2 
years.
    The EPA is also aggressively moving forward with standards 
to reduce hazardous air emissions from industrial boilers, 
cement manufacturers and from electric power generators. Now, 
reducing hazardous emissions is a goal that we all support. But 
alarmingly, the benefits the EPA associates with the rules come 
almost entirely from reducing particulate matter (PM)--not the 
hazardous emissions. So here we have the Agency justifying new 
mandates that will cost thousands of jobs on PM benefits--even 
though we already have a specific program designed to address 
PM directly, the national ambient air quality standard for PM.
    Recently, I called for this Committee to fulfill its 
oversight responsibilities and hold hearings on EPA's ``train 
wreck'' regulations. Yet, we are having a hearing next week 
whose title, ominously, resembles that of today's. Chairwoman 
Boxer, in the coming weeks I look forward to working with you 
on additional oversight hearings where we can begin to take a 
detailed look at the Obama EPA's aggressive regulatory agenda.

    Senator Carper. Thank you, Senator Inhofe.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman. Thank you to you 
and Senator Udall for holding this important hearing. I am 
delighted that Jim Ginda is here from Rhode Island to share his 
expertise. I think it is important that we have a hearing like 
this where the perspective of children can be heard.
    EPA is updating air quality standards and setting first-
ever Federal air toxic air pollution limits from power plants. 
That is a good thing, because these are long overdue. They have 
been mired in litigation and deliberately undermined by the 
last Administration. But they are supported by the science, 
they are supported by public health. And they are real costs of 
further delay.
    Our Rhode Island Department of Health reports that 11 
percent of children in Rhode Island have asthma. Nearly 14 
percent of our teens have asthma. You get into certain local 
areas and populations, those numbers climb even further. But 
just as they are, that translates into 25,000 children in our 
State of 1 million. That is more than the entire population of 
towns in Rhode Island like Central Falls, Lincoln, and 
Westerly. And these children, frankly, are not heard. And the 
costs to them are not heard.
    The polluting industries are always heard loud and clear in 
this town. There has already been a lot of talk about 
compliance costs here in this hearing. But there are real 
health savings that come from these compliance costs, and they 
usually outweigh the compliance costs by huge factors. And 
asthma does mean costs. It means costs in human terms, as 
anybody who has seen a child struggling for breath knows. But 
it also has real economic costs.
    The recent report in Rhode Island showed that in 2006 and 
2007, the total hospital charges attributable just to asthma 
were $35 million. That is just the hard hospital charges, not 
the kids out of school, not the parents who had to stay home 
who couldn't work that day because they had to take care of it. 
There are costs on the health savings side if we don't take 
these appropriate steps.
    Two doctors on Brown University's faculty have found a 
significant association between pediatric emergency department 
visits for respiratory related conditions on the one hand and 
exposure to fine particulate matter on the other. We in Rhode 
Island are downwind of an array of power plants, many of which 
have no pollution controls whatsoever, many of which have 
resorted to high smokestacks to pump their pollution up into 
the sky, protecting their own communities, but leaving Rhode 
Island vulnerable to being basically bombarded.
    It is not unusual to drive to work and have the drive time 
radio in Rhode Island, Mr. Chairman, say that today is a bad 
air day. And infants should be kept indoors, elderly should be 
kept indoors, people with respiratory conditions should be kept 
indoors. And you look around, it looks like a beautiful day. 
But it is ozone that has precipitated down as a result of power 
plants, primarily in the Midwest, without pollution controls, 
that have elected to dump it on our State rather than clean it 
up in their State.
    A pediatric pulmonologist at Hasbro Children's Hospital in 
Providence, Rhode Island, recently told my office that kids' 
health issues are too often overlooked because, he said, ``Kids 
have no money, and they don't vote.'' Well, the big polluters 
have plenty of money and plenty of lobbyists, and they get 
their voices heard. We hear a ton, as I said, about compliance 
costs on the polluting industry. But we need to also hear about 
the health savings, both in lives and in quality of life and in 
hard economic dollars as well, which lift our economy by 
multiple times the compliance cost when we take care of 
ourselves, of our children, of our lungs.
    So thank you very much for holding this hearing.
    Senator Carper. Senator Whitehouse, we are delighted to be 
here with you, very much.
    I am going to introduce four of the five panelists, and I 
am going to call on Senator Whitehouse to introduce our witness 
from Rhode Island.
    Today, joining us on the panel is Dr. Dona Upson. My 
grandmother's name is Doma, D-O-M-A, so when I saw your name, I 
said, oh, must be Dona. Fortunately, Senator Udall reined me 
in. So Dr. Dona Upson, we are happy you are here. A board 
member, I am told, at the American Lung Association of New 
Mexico. Thanks for your good work.
    Next, Senator Whitehouse, your turn.
    Senator Whitehouse. Do I get to do my introduction right 
now?
    Senator Carper. You are on.
    Senator Whitehouse. Very good. Well, we want to welcome Jim 
Ginda here. He is a registered respiratory therapist, a 
certified asthma educator, a certified health education 
specialist with over 33 years in health care. He is the 
respiratory care supervisor at Kent Hospital in Warwick, Rhode 
Island, and a clinical instructor for the Community College of 
Rhode Island. He received his associate and applied science 
degree from the Community College of Rhode Island, bachelor of 
science degree from Western Michigan University and his MA from 
the University of Alabama, with National Honor Society 
induction as a graduate student.
    In Rhode Island, he is past president of the Rhode Island 
Society for Respiratory Care, a past member and chair of the 
State Board of Respiratory Care, and he was a member of the 
Health Care Advisory Board for TMP Worldwide. He has 
participated in the Medical Aerosol Focus Group in Canada, he 
lectured in 11 different States. He has written for national 
publications, provided expert opinion in nine medical legal 
cases in four other States. He is a member of the Rhode Island 
Public Policy Committee for the American Lung Association and 
the Rhode Island Asthma Control Coalition.
    He has provided testimony on these issues for committees of 
the Rhode Island General Assembly and the Providence City 
Council. He is a recipient of the Hospital Association of Rhode 
Island Award for Excellence in Hospital Care, and the Rhode 
Island Society for Respiratory Care Lifetime Achievement Award. 
We are very proud to have him here in Washington sharing his 
perspective.
    Senator Carper. Thanks for that introduction.
    Next we have Dr. Julie Goodman. I understand Dr. Goodman is 
a Principal at Gradient Environmental Consulting. Good morning 
and welcome.
    Next, Dr. Margo Thorning, no stranger here. It is nice to 
see you. She serves as a Senior Vice President at the American 
Council for Capital Formation.
    And finally, we have a familiar face, at least to those of 
us in Delaware, Patty Resnik, from my home State, the Corporate 
Director for Performance Improvement in Utilization Management 
at the Christiana Care Health System, a place we are very proud 
of.
    Again, we would ask each of you to try to limit your 
comments to about 5 minutes. If you go much over that, I will 
have to rein you in. But your entire statement will be made 
part of the record, so please proceed. Again, thank you all for 
coming.
    Dr. Upson.

            STATEMENT OF DONA J. UPSON, M.D., M.A., 
               PULMONARY/CRITICAL CARE PHYSICIAN

    Dr. Upson. Good morning. Thank you, Chairman Carper, 
Chairman Udall and Senators, for this opportunity to speak with 
you today. My name, as you mentioned, is Dr. Dona Upson. I am a 
pulmonary and critical care physician form Albuquerque, New 
Mexico.
    I am speaking today on behalf of the American Lung 
Association and the American Thoracic Society. I would like to 
speak to you as a doctor and a mother about children and their 
lungs.
    I am here to tell you that children my look like miniature 
adults, but they are not. For many reasons, they deserve 
special attention and protection, including the clean-up of 
major pollution sources in the Nation.
    Air pollution is especially dangerous to children, because 
their lungs are growing and because they are so active. Just 
like their arms and legs, the largest portion of children's 
lungs grow long after they are born. As Senator Carper 
mentioned, children are outside for longer periods and are more 
active, especially in the summer when ozone levels are highest. 
They inhale more polluted outdoor air than do adults.
    The American Academy of Pediatrics has issued a special 
statement on the dangers of outdoor air pollution on children's 
health. The conclude that there is a compelling need to move 
forward on efforts to ensure clean air for all. I absolutely 
agree. I am attaching a copy of their statement.
    Children's lungs are vulnerable to air pollution, 
especially from ozone and particulate matter. Multiple studies, 
both in the United States and around the world, have provided 
strong, consistent evidence that air pollution impairs 
children's ability to breathe. Chamber studies have 
convincingly shown that exposure to air pollution reduces 
pulmonary function and promotes airway inflammation. 
Epidemiologic studies have linked air pollution to a host of 
adverse health consequences, including cardiac deaths, 
respiratory deaths, heart attacks, asthma exacerbations and low 
birth weight.
    There is also real world evidence that reducing air 
pollution can help protect children. One of the best known 
examples is from Atlanta, during the 1996 Olympics, when a 
reduction in ozone was linked to a 42 percent decrease in 
asthma treatment and hospitalization in the Georgia Medicaid 
claims files.
    In New Mexico alone, where I practice, 47,000 kids have 
asthma. Similar to the adults I treat, having asthma puts 
children at even greater risk of harm. One example of this from 
my own experience came several years ago when I was the medical 
director of a 2-week asthma camp for children in New Mexico. We 
had to cancel the camp due to the high level of pollution from 
wildfires from Arizona, similar to what we are seeing this past 
week.
    What is most impressive about the scientific literature on 
air pollution is how comprehensive it is, with literally 
hundreds of studies documenting that air pollution is bad for 
human health. To date, most of these have looked at the health 
effects of individual components of air pollution, such as 
ozone. However, in real life, we breath a whole mix of 
pollutants together. It is quite likely that when the mix of 
pollutants is more thoroughly investigated, even greater 
impacts on health will be seen.
    Some would lead you to believe that cleaning up ozone, 
mercury, lead, arsenic, dioxin, acid gases, as well as carbon 
pollution, is unnecessary or just too expensive. Yet it is not 
hard to fathom how breathing toxins can lead to serious health 
complications. But we don't have to make a choice between 
protecting our environment and our communities and our economy. 
Let me give you a New Mexico example.
    Coal and oil-fired power plants are some of the biggest 
sources of air pollution in the United States. The Four Corners 
power plant is the Nation's largest source of nitrogen oxides, 
a pollutant that is one of the precursors for both fine 
particulate matter and ozone. Pollution from the plant blows 
directly into the Navajo Nation and into our national parks.
    In February, the EPA and the plant's owner, Arizona Public 
Service, announced an agreement to cut emissions of that 
harmful pollutant by 87 percent, all while retaining the jobs 
of the workers, most of whom are Native American. When these 
changes are made, the cleanup measures will reduce air 
pollution, protect health, save lives and improve the view of 
the spectacular New Mexico landscape.
    EPA is proposing to take similar steps for power plants 
across the Nation, steps that will improve health and save tens 
of thousands of lives, reducing harm from the air we all 
breathe. The Clean Air Transport Rule will protect downwind 
States in the eastern United States from nitrogen oxides that 
blow across State lines.
    This fall, 21 years after this United States required the 
cleanup of toxic mercury, arsenic, formaldehyde, dioxins and 80 
other pollutants, the EPA will be issuing final rules to set 
limits on the amount of these pollutants that coal and oil-
fired power plants can emit. The Clean Air Act has a proven 
track record of keeping people healthy. In 2010, the law 
prevented 160,000 premature deaths and 1.7 million asthma 
attacks.
    In conclusion, the danger from exposure to air pollution is 
real. The science documenting the adverse health effects of air 
pollution is conclusive. There is an urgent need to clean up 
the air we breathe. For all these reasons, the American Lung 
Association and the American Thoracic Society strongly support 
the Clean Air Act as one of the Nation's best tools to protect 
our children.
    Thank you.
    [The prepared statement of Dr. Upson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. You were precisely at 5 minutes.
    [Laughter.]
    Senator Carper. Dr. Ginda, do you feel up to it?

 STATEMENT OF JAMES E. GINDA, MA., RRT, AE-C, CHES, SUPERVISOR 
               OF RESPIRATORY CARE, KENT HOSPITAL

    Mr. Ginda. I will give it my best.
    Senator Carper. Give it a shot. Welcome. You have 5 
minutes.
    Mr. Ginda. Good morning. My name is James Ginda. I am 
honored to have this opportunity to be here today to testify 
before you on this important topic. It is an opportunity for me 
to advocate for those who do not have a voice, but who are 
affected by air quality issues.
    The topic of air pollution and children's health is one 
that means a great deal to me. I am a registered respiratory 
therapist, a certified asthma educator and a certified health 
education specialist and have been in the field for 33 years. I 
have seen first-hand the impact of lung disease on the lives of 
patients I have cared for in hospital settings and in home 
care.
    While educating children through the years about lifestyle 
choices, such as cigarette somking, I have come to realized the 
effects of environment on the lung health, and felt the need to 
try to make a difference on a more macro level, upstream and 
health promotion.
    Environment is something that is too often beyond their 
individual control, whether it be secondhand smoke, housing 
conditions, or outdoor air quality, which I will focus on 
today. Beyond counseling them to remain indoors on the worst 
air quality days, they are susceptible to environmental 
triggers when outdoor air pollution makes its way indoors, 
particularly for those in urban communities where air 
conditioning is not an option and their vulnerability is 
compounded by other co-morbid conditions and socio-economic 
factors.
    Airborne toxins are problematic because of the gaseous 
components, acid aerosols, byproducts of photochemical 
reactions, such as ground level ozone, and the effects of 
inhaled particulate matter deposited within the lungs. 
Particulate matter is composed of black carbon soot, metals, 
volatile organic compounds and crustal materials from mobile 
and stationery sources, such as diesel engines and power 
plants.
    The lungs act as a highly efficient filter and trap inhaled 
particles within their structures. Black carbon fine 
particulates get past upper airway lung defenses, even in 
healthy individuals, and carry toxins deep into the lungs, 
including carcinogens. The black carbon in particulate matter 
has been show to be a formidable opponent for alveolar 
macrophages, which are important for infection protection and a 
last line of lung defense. Chronic inflammation which is 
uncontrolled can lead to airway remodeling and a fixed degree 
of airflow obstruction, as we see in chronic lung disease.
    Both the fine particle and gaseous components of air 
pollution are triggers in asthma and can affect children even 
at low levels, below the National Ambient Air Quality 
Standards. Weather events, such as air temperature inversions, 
can trap pollutants and compound this problem. Gaseous 
components, such as sulfur and nitrogen oxides, and acid 
aerosols, are irritating to airways and can induce an 
inflammatory response in the lungs and construction of 
bronchial smooth muscle, which narrows the airways and makes 
breathing difficult.
    Asthma is the most common chronic disease of childhood, and 
is responsible for a large amount of health care expenditures 
and lost school days. The burden extends to families who lose 
work days caring for sick children and to the health care 
system with increased acute care visits, emergency department 
visits and hospitalizations. Crisis-centered medical care and 
asthma education are not enough to preserve or improve the 
health of asthmatic children when environmental triggers are 
out of the control of the most vulnerable. Indeed, the Healthy 
People goals for improving the health of our Nation recognize 
this in their comprehensive respiratory disease and 
Environmental objectives.
    In 2010, after 3 years of careful study and consideration, 
the Rhode Island General Assembly passed a comprehensive clean 
construction bill as part of the Diesel Emissions Reduction 
Act, known as An Act Concerning Government Responsibility to 
Protect Public Health from Diesel Pollution, it is a shining 
example of a cooperative effort between concerned legislators, 
State agencies, environmental groups, industry representatives 
and health advocates.
    Local action has also been taken by city councils to reduce 
diesel emissions in the form of enforcement of anti-idling 
ordinances and pollution control devices on their city fleets. 
This cooperation momentum to address controllable sources of 
pollution must continue nationwide to improve the health of our 
communities. Air pollution is not confined with local or State 
borders. And children upwind can be affected by pollution from 
distant sources. So we also rely heavily on the United States 
Environmental Protection Agency and Federal Clean Air Act to 
protect our children.
    Children, and particularly children with asthma, are 
considered more vulnerable to air pollution with their higher 
respiratory rates, lung ventilation and outdoor activity and 
play. Prevention has to be a focus in health care and reducing 
the health burden of these toxins is within our grasp. On my 
own behalf as well as on behalf of the patients and families 
for whom I advocate today, who I have had the honor and 
privilege of caring for through the years, I applaud you for 
holding this hearing and urge your support of regulations and 
legislation aimed at continuing to reduce this preventable 
health threat.
    Children are the future of our Nation, healthy children in 
safe and healthy communities. The yellow cautions for children 
playing can serve as a reminder of all childhood health 
threats. Creating a healthier environment by controlling air 
toxins from mobile and stationary sources will benefit not only 
those most at risk, but indeed, all of us who depend on 
breathing clean air for optimal health.
    Thank you.
    [The prepared statement of Mr. Ginda follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Mr. Ginda. Exactly five. Exactly 
5 minutes. This is eerie.
    Now, before Senator Udall showed up and joined this 
hearing, we would go seven, eight, nine, 10 minutes. I don't 
know what it is, but this is pretty impressive. Not even 
calling the shots here. We have had two consecutive witnesses 
who have come in at exactly 5 minutes.
    We will see how you do, here.

             STATEMENT OF JULIE E. GOODMAN, PH.D., 
                   DABT, PRINCIPAL, GRADIENT

    Ms. Goodman. I will be under.
    Senator Carper. OK, well, talk slowly, then.
    Ms. Goodman. Good morning, and thank you for the 
opportunity to testify regarding air quality and children's 
health. I am Julie Goodman, Ph.D., a diplomate of the American 
Board of Toxicology. I am a Principal at Gradient, a firm 
specializing in human health risk assessment in Cambridge, 
Massachusetts. I also teach a graduate level epidemiology 
course at the Harvard School of Public Health.
    I am presenting testimony this morning on my own behalf as 
an independent scientist. I am not representing myself under 
any Federal contract or grant.
    Clean air and children's health are very important to me, 
both as a scientist and as a mother. We all want clean air and 
appropriate standards if they result in health benefits. But 
unless there is evidence that standards would improve health or 
reduce the disease burden associated with air pollution, 
resources should be used toward other measures that would more 
clearly benefit society.
    Several issues with EPA's risk assessment methodologies 
were noted this year by a committee assembled by the National 
Research Council, or NRC, of the National Academy of Sciences. 
This committee reviewed EPA's draft assessment of formaldehyde, 
and noted a number of things that had also been identified in 
previous EPA assessments conducted over the last decade.
    Some of the concerns raised include a lack of information 
regarding study selection criteria, inconsistent methods for 
evaluating the strengths and weaknesses of studies and the lack 
of a clear framework for evaluating the weight of evidence for 
establishing what causes adverse health effects. These are also 
major limitations with EPA's evaluations of the National 
Ambient Air Quality Standards, or NAAQS, including the ongoing 
reconsideration of the ozone standard, which is scheduled to be 
finalized in July.
    A key point of my testimony today is that because of these 
limitations identified by the NRC committee, the methods used 
by EPA to assess the risks of air pollution are likely to over-
estimate the benefits of more stringent air quality standards. 
This potentially diverts limited national resources to 
implementing air quality standards that do not improve public 
health.
    In the evaluation of air pollution studies, including the 
ongoing ozone science assessment, EPA does not evaluate the 
strengths and weaknesses of individual studies consistently. In 
several instances, EPA criticized one study for using a certain 
methodology while another study using the same methodology did 
not receive the same critique. This resulted in the latter 
study receiving more weight in the overall analysis, when both 
studies should have been considered equally.
    This is consistent with what the NRC committee said about 
the formaldehyde assessment, and that some studies receive a 
fuller treatment, including a more extensive assessment of bias 
and its consequences for estimating effect measures and others 
receive less attention.
    This is a particularly salient issue when studies come to 
different conclusions. EPA has a tendency to over-emphasize 
study results that suggest a pollutant may be associated with a 
health effect and de-emphasize or fail to consider at all study 
results indicating no association. This leads to a biased 
assessment of the data. If similar studies show that a certain 
level of pollution is harmful in some cases but not harmful in 
others, one must question both results and not just the latter.
    Study outcomes depend on many factors besides pollution, so 
the results of a single study or part of a study are not 
sufficient to determine what is occurring in the general 
population. Rather, real effects should be seen in patterns 
within and across all relevant epidemiology studies and 
consistent with the results of other types of studies, such as 
toxicity, mechanistic and exposure studies. This does not 
necessarily mean that all studies should be in complete 
agreement, but rather, if a pollutant is truly causing a health 
effect, it will be evident when all of the data are considered 
as a whole. EPA does not take this approach in assessing 
studies.
    Overall, and consistent with the NRC formaldehyde committee 
findings, a presentation of the study selection criteria and a 
clearly articulated framework for weighing the evidence are 
critical fro any determination of whether an air pollutant is 
causing a health effect. The NRC formaldehyde committee 
recommended that all key studies need to be thoroughly 
evaluated with standardized approaches that are clearly 
formulated based on the type of research.
    The committee also stated that strengthened, more 
integrative and more transparent discussions of weight of 
evidence are needed. The discussions would benefit from more 
rigorous and systematic coverage of the various determinants of 
weight of evidence such as consistency. These scientific 
guidelines should be followed by EPA when evaluating air 
pollution studies as well. Today, they are not.
    Finally, I would like to emphasize that I am not suggesting 
that air pollutants do not cause harm at high concentrations. 
Studies have shown consistently that they do. The issue is 
whether effects occur at air pollution levels observed today. 
Correcting the weaknesses cited by the NRC committee by using a 
transparent weight of evidence methodology could significantly 
improve our understanding of the risks posed by air pollution. 
This would ensure that we do not use limited national resources 
to implement air quality standards that do not benefit the 
health of children or the population at large.
    Thank you.
    [The prepared statement of Dr. Goodman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Dr. Goodman.
    Dr. Thorning, please proceed.

  STATEMENT OF MARGO THORNING, PH.D., SENIOR VICE PRESIDENT, 
             AMERICAN COUNCIL FOR CAPITAL FORMATION

    Ms. Thorning. Thank you, Chairmen Carper and Udall, and 
members of the Committee. It is a great pleasure to be here 
with you.
    My name is Margo Thorning. I am the Chief Economist for the 
American Council for Capital Formation. We represent a wide 
range of American industry, including manufacturing, financial 
services, as well as individual investors and small firms as 
well.
    In my testimony today I would like to make four points. 
First, the benefits that EPA alleges stem from the Clean Air 
Act amendments of 1990. The $2 trillion figure of economic 
benefits in the year 2020 has no basis in economic reality. 
That $2 trillion number is based on a survey of individuals 
asking them what would they be willing to pay for a somewhat 
reduced risk of mortality. It is also based on surveys of wage 
differentials between risky occupations like commercial 
fishermen and office workers.
    So that number, the $2 trillion number, has nothing to do 
with consumption spending, investment spending, government 
spending. It doesn't create a single job or cause anybody to 
spend any money. So that number, the $2 trillion number, is not 
an appropriate one to use to analyze the benefits of the Clean 
Air Act.
    Second point, EPA did its own macroeconomic modeling to 
look at the costs of the Clean Air Act amendments. I would like 
to show chart one from my testimony. This is EPA's own data 
showing that, and the blue case is the cost only case, showing 
that GDP steadily declines because of the Clean Air amendments. 
It is down by $79 billion in 2010, by $93 billion compared to 
the baseline forecast in 2015, and by $110 billion in 2020.
    EPA also modeled a case where they assumed that the Clean 
Air Act increased workers' health, so that we had more workers 
working and that all the extra people actually found a job. In 
that case, and that is the red bars in the chart, we still see 
losses in GDP in 2010 and 2015. We only see a tiny $5 billion 
increase in GDP in 2020. Compare that $5 billion increase in 
GDP to the $2 trillion figure that EPA puts on their website as 
an indication of the economic benefits of the Clean Air Act.
    Also, EPA modeled the impact of the Clean Air Act on 
industrial output. That is figure two in my testimony. It shows 
significant losses in 2020 of industrial output, particularly 
in the other minerals category, which is bricks and gypsum and 
building materials. Particularly losses in aluminum, 
electricity. Other hard hit industries are petroleum, 
transportation services. So when EPA does standard 
macroeconomic modeling, it shows very significant impacts, 
negative impacts on GDP.
    Third point I want to stress is the link between economic 
growth and reduced mortality. For example, a study by Professor 
Brenner at Johns Hopkins University found over a 100-year look 
at the U.S. from 1900 to 2000 a strong correlation between 
higher per capita income and decreased mortality. That is 
figure three in my testimony. In addition, a study by Sarah 
Berghard and her colleagues, she is at the University of 
Michigan, showed that higher unemployment levels have a 
significant negative impact on health.
    The fourth point is that investment spending in the U.S. is 
severely depressed. Compared to the fourth quarter of 2007 when 
the recession began, we are still down $313 billion, first 
quarter 2011, we are down $313 billion in investment spending 
compared to pre-recession levels. That is figure four in my 
testimony.
    The historical data show that each $1 billion increase in 
investment spending contributes 15,000 new jobs. And 
conversely, each $1 billion decrease is responsible for a loss 
of 15,000 jobs. So focusing on the conditions that will let 
American business feel comfortable to invest, to make 
productive new investments and hire workers is going to be a 
key factor for our economic recovery.
    So finally, I would say that policymakers need to be very 
careful as they look at existing and new regulations to be sure 
the benefits that are reputed to go with those are accurately 
done, that they really represent real economic benefits, and be 
very careful as they look at the cost. Because every existing 
and new regulation, the cost should certainly be less than the 
benefits.
    Finally, I suggest that the best thing we can do for 
children's health is to be sure their parents can find a 
productive, good-paying job. Thank you.
    [The prepared statement of Ms. Thorning follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thanks very much.
    Ms. Resnik, you are recognized. Please proceed.

  STATEMENT OF PATTY RESNIK, RRT-NPS, MBA, FACHE, CPHQ, CPUR, 
    CORPORATE DIRECTOR, PERFORMANCE IMPROVEMENT/UTILIZATION 
           MANAGEMENT, CHRISTIANA CARE HEALTH SYSTEM

    Ms. Resnik. Thank you. I would like to thank Chairman 
Carper and Chairman Udall and Committee members here for the 
opportunity to speak today and for your work here.
    I am Patty Resnik, I am the Corporate Director of 
Performance Improvement and Utilization Management at 
Christiana Care Health System in Delaware. We are the largest 
health system in Delaware. And today I am representing not only 
the tens of thousands who suffer from chronic lung disease in 
Delaware, but also the over 890,000 people of our State who 
desire to breathe clean air and so protect their good health.
    I am a registered respiratory therapist with a sub-
specialty certification in neonatal pediatric respiratory care 
and my professional background also includes education, 
training and certification in health care quality and 
utilization management. There are over 150,000 practicing 
respiratory therapists in the United States. Therapists work 
under the direction of physicians and they evaluate, treat and 
care for patients with cardiopulmonary disease, such as asthma.
    Asthma is a chronic disease of the respiratory system. 
Asthma causes swelling and narrowing of the airways, making it 
difficult for a person to breathe. An asthma attack occurs when 
a person encounters or is exposed to a trigger. Triggers are 
different for each individual, but air pollution is a trigger 
for many people, especially children. Because children's 
airways are smaller than adults, an asthma attack can be more 
severe for a child.
    When you consider some of the asthma statistics, asthma 
affects 8.5 percent of the children in the United States. It is 
the most common chronic disease in children. It accounts for 
missed school days, children with asthma miss approximately 
2.48 more school days, accounting for the most common cause of 
absenteeism.
    Economic costs are estimated to range between $12.7 billion 
and $19.7 billion with approximately $2 billion to $2.3 billion 
directly attributed to children's asthma direct medical costs 
and the indirect costs of lost productivity from parental work 
lost time. In Delaware specifically, in 2008, asthma was one of 
the top three diagnosis for hospitalization for ages 1 to 17.
    At our health system, Fiscal Year 2009, a little over 1,900 
emergency room visits for asthma, age 18 and younger, making up 
22 percent of these visits. At that same time period, about 398 
hospital admissions with an average length of stay of 3.7 days. 
And what that means is that a child in the hospital for 3.7 
days is missing approximately 4 days of school, and typically a 
parent will stay with their child while they are hospitalized, 
so that parent, if working, misses 4 days of work.
    In Fiscal Year 2010, we saw 11 percent increase in 
admissions to 441 with an average length of stay of 3.78, and a 
5 percent increase in our ED visits as well in that time 
period. We have taken emergency response to asthma to the 
highest level, including the availability of having anesthesia 
in the emergency room to treat people who are resistant to 
standard care.
    In the American Lung Association State of the Air report, 
every county in Delaware received failing grades for ozone, 
including Newcastle County, the most populated county, as part 
of the Philadelphia metro area, is among the to 25 most 
polluted cities for ozone.
    As a full-time working mom with two children, I am 
concerned about the quality of air. I had the opportunity to 
serve two terms as our PTA president of my son's elementary 
school. Early in the first part of my first term, late spring, 
hot ozone days, the air conditioning malfunctioned. I was 
inundated with emails and phone calls from parents concerned 
over the impact of air quality on their children, parents of 
asthmatics concerned about availability of their child getting 
from their classroom to the school nurse to get their 
medications, concerns from parents about early dismissals and 
having to make alternate child care arrangements, so that 
someone could be home to meet their children, myself included. 
This does not account for the lost educational time these 
children experience due to the repeated early dismissals.
    Fortunately, our PTA was able to collaboratively work with 
our local Government and our local school board to fix that 
situation, taking over a year to do so.
    The Clean Air Act is a vital public health law. It sets 
health-based air quality standards. The EPA and States around 
our Country have worked to implement this vital law that 
reduces air pollution, and it is working.
    I entrust this Committee to protect all those at risk from 
air pollution, those who are most vulnerable, such as our 
children, to our health enthusiasts. Thank you very much.
    [The prepared statement of Ms. Resnik follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you so much. And thanks for the good 
work that you and your colleagues at Christiana Care do for us 
every day.
    One of the guiding principles in my life is actually 
provided by, of all people, Albert Einstein. Albert Einstein 
once said, ``In adversity lies opportunity.'' We have plenty of 
adversity with respect to our health care challenges in this 
Country. We spend way more money than any other nation. We 
spend like 18 percent, something like 16, 18 percent of GDP for 
health care. Places like Japan, they spend half that. They 
cover everybody, they get better results. They can't be that 
smart, we can't be that dumb.
    But in that adversity lies opportunity. And the opportunity 
is, how do we reduce our costs and get better health care 
results for less money.
    I think part of the solution is actually with respect to 
air quality. One of the issues that Senator Inhofe, Senator 
Voinovich and others on this Committee have worked on before is 
diesel emission reduction. For every $1 that we spend for 
diesel emission reduction, with literally implementing and 
installing technology developed and made in America, we 
basically get a benefit, economic and health benefit of about 
$13. That is what I call taking adversity and turning it into 
opportunity.
    And it is not uncommon, you look in my State and you look 
in other places where people live where there is a lot of 
highway traffic, a lot of diesel truck traffic, especially, and 
to look at the incidence of health impairment, particularly for 
kids, along those arteries. It is pretty clear that something 
bad is going on, and we have an obligation, and I think an 
opportunity, to do something about it.
    With that sort of set as a precursor, let me just ask a 
couple of questions. First, I want to ask Ms. Resnik and Mr. 
Ginda, can you take maybe a minute or two and talk about what a 
pediatric respiratory therapist does? What kind of treatments 
would a child received under your care? Just be fairly brief, 
if you would.
    Mr. Ginda. Yes, thank you, Senator. Children come into the 
hospital for various reasons. A lot of the care that is 
provided is as an outpatient now compared to the past, where 
the would previously be admitted. But infections of the lung, 
reactive airway disease of the upper airways, such as asthma, 
primarily. There is a population with cystic fibrosis, a 
genetic disorder that would be treated by respiratory 
therapists.
    But evaluating the patient in the emergency room that would 
be a child would involve listening to their lungs and listening 
to their parent describe the symptoms the child has been 
having, working with the physician to develop a treatment plan 
that includes medication administration to try and relieve the 
acute episode they are going through. And then teaching related 
to measuring their pulmonary function, so that we can actually 
record the airflow abnormalities and let them track it over 
time, teach them in a friendly way, like we use a stop light, a 
red light, a yellow light and a green light, when their peak 
flow is in the right range and as it starts to decline.
    So if they are having a bad air day, like Rhode Island was 
declared today a bad air day, southern Connecticut, southern 
Massachusetts, extending out to Nantucket and Martha's 
Vineyard, all the way out in the water there. So on a day like 
today, if they were having difficulty breathing, they could 
measure their peak flow. It is just like taking their 
temperature if they felt sick, and get a feel for whether that 
was abnormal.
    Senator Carper. All right, thanks.
    Ms. Resnik, can you just respond briefly?
    Ms. Resnik. And in addition to that, the therapist would be 
working with the family and the child to ensure that the family 
and child understand what caused the trigger for their asthma 
attack, what caused them to come to the hospital, do they have 
an asthma action plan so that they can self-manage their 
disease at home and not have to come to the hospital, do they 
have access to medications, can the family afford those 
medications, and help develop that plan for transitioning the 
child back to their home.
    Senator Carper. Can you give us a sense of what kinds of 
costs are incurred by virtue of these treatments? Just give us 
an idea.
    Mr. Ginda. Yes, Senator. In Rhode Island, 2007 data, the 
average hospitalization stay in Rhode Island for a child with 
asthma was 2 days when they were hospitalized. A child under 
age 5 had the highest hospitalization rate. The average charge 
for that hospitalization was $7,840.
    Senator Carper. How much?
    Mr. Ginda. It was $7,840. Now, in 2007 in Rhode Island 
there were 1,856 emergency department visits by children with a 
primary diagnosis of asthma. The average charge for each one of 
those emergency Department visits was $1,823 per visit. Again, 
children under age 5 accounted for 46 percent of all the ED 
visits. And the average charge was $2,013.
    In Rhode Island, we see the highest visits by the socio-
economically disadvantaged, particularly the Providence County 
area of Rhode Island. The effect of asthma on blacks is four 
times that of on Hispanic whites, and the effect on Hispanics 
is two times that of whites. So they are tremendously 
different.
    Senator Carper. Wow. That is a lot of money.
    Ms. Resnik, did you want to add?
    Ms. Resnik. I did provide in my testimony the statistics 
for Delaware for Christiana Care. I would be happy to followup 
in writing with you on the costs of that care.
    Senator Carper. All right.
    I am going to stop right there and yield to Senator 
Barrasso. We will have a second round of questions. Thank you 
for your responses. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Dr. Thorning, if I could, I was looking through your 
testimony and there is a table two, a figure two of your 
testimony entitled percentage change in industry output in 
2020, and a cost only case. It shows the sectors of the economy 
that would be most hit by this new Clean Air Act regulations, 
it is going to be electricity, mining, minerals, aluminum and 
coal. Then it goes on to show other sectors, like agriculture, 
lumber, transportation, equipment, iron, steel, plastics, 
rubber, petroleum also going to be hard hit.
    In your opinion, how vital are these sectors in the economy 
in terms of manufacturing and developing the American products 
for future and creating jobs in this Country?
    Ms. Thorning. I think they are extremely critical to our 
economic recovery and to our competitiveness internationally. 
For example, the other minerals category that is most hard hit 
includes a range of products used in building, road 
construction, homebuilding. So to the extent those industries 
are impacted by these regulations, it is going to be harder to 
see the kind of restart we need in our economy.
    Certainly the energy sector is critical. I don't know if 
you noticed Richard Fisher of the Dallas Feds discussion 
yesterday on Squawkbox, high energy prices are one of the key 
problems right now in terms of economic recovery. And 
electricity prices, too, we need to focus on cost-effective 
policies that will help us have cleaner energy and not 
negatively impact, not raise energy prices for our households 
and producers.
    Senator Barrasso. That gets to the issue of child 
mortality, because you cited Professor Brenner of Johns Hopkins 
University, who stated that economic growth leads to lowering 
of morality rates.
    Ms. Thorning. Yes.
    Senator Barrasso. So does that include lowering the 
mortality rates for children as well?
    Ms. Thorning. Of course, yes.
    Senator Barrasso. Thank you.
    A couple other things. Dr. Goodman, you stated that the EPA 
has a tendency to over-emphasize study results that suggest a 
pollutant may be associated with a health effect, and then they 
de-emphasize or fail to consider at all different study results 
when they don't see an association. Do you think the EPA's 
practice in this regard is scientific or is it something 
different?
    Ms. Goodman. I'm sorry, I don't understand.
    Senator Barrasso. You said that the EPA has a tendency to 
over-emphasize study results that they like, and under-
emphasize study results that they don't like.
    Ms. Goodman. Right.
    Senator Barrasso. Is that actually being fair and honest 
with the American people?
    Ms. Goodman. No, I don't think it is an appropriate way to 
analyze scientific data. The appropriate way to analyze data is 
to look at it all and give everything, every study equal 
consideration and strengthen limitations equally among all 
studies.
    Senator Barrasso. Based on the scientific evidence, as 
opposed to the ones you like, picking and choosing the ones you 
like and the ones you don't like?
    Ms. Goodman. Correct, based on the scientific evidence.
    Senator Barrasso. But if EPA is making policies this way, 
they could then make decisions that needlessly cost jobs under 
the guise of trying to say they are protecting the public 
health or environment?
    Ms. Goodman. That is possible, yes.
    Senator Barrasso. OK.
    Dr. Upson, I understand that the EPA has paid, has paid the 
American Lung Association, and you are here representing the 
American Lung Association, as a member of the board, that the 
EPA has paid the American Lung Association more than $20 
million, perhaps double the payments that the EPA made to the 
American Lung Association in the 1990's, and that the American 
Lung Association also received another $3.7 million from the 
American Recovery and Reinvestment Act of 2009, the so-called 
stimulus package, is that correct?
    Dr. Upson. I don't know, sir.
    Senator Barrasso. Well, it is an article in the Washington 
Times, Mr. Chairman. I would like to have that Washington Times 
article from March 31st included in the record.
    Senator Carper. Without objection.
    [The referenced material was not submitted at time of 
print.]
    Senator Barrasso. So the letter says that you, the American 
Lung Association has been paid millions and millions of money 
from the taxpayers, from the Environmental Protection Agency, 
as well as this so-called Stimulus Act. It goes on to say that 
your organization puts ads, does polls and lobbies Congress 
specifically for more EPA regulation. Your organization has 
sued to expand the EPA's authority. And your organization 
regularly issues reports that lament supposedly poor air 
quality in the United States and touts the purported benefits 
of EPA's actions that they have paid you to do and to say.
    So just to make clear for the people who are here, does the 
American Lung Association, of which you serve on the board, 
does the American Lung Association and/or its affiliates use 
taxpayer funds to lobby Congress for more EPA regulations?
    Dr. Upson. I am on the local board of New Mexico. I know 
that in New Mexico, we do not receive any money from EPA.
    Senator Barrasso. Do you think it is appropriate for the 
American Lung Association to take money from the Government to 
lobby the Government, to sue as well? Is that one of the goals 
of the American Lung Association? Is that kind of why you went 
into this?
    Dr. Upson. The goal of the American Lung Association is to 
improve lung health for Americans.
    Senator Barrasso. So it sounds good to you, these other 
things? They sound fair?
    Dr. Upson. The funds that are provided by EPA, as I 
understand, are for specific programs. And we have somebody 
from the American Lung Association who could answer that better 
than I could, or I could get back to you in writing on the 
separation of those funds. I know there are of course strict 
regulations on how fund are used, so that there is no conflict 
of interest.
    I think that the EPA and the American Lung Association 
share the goal of improving lung health and, especially, I 
don't know about the EPA, but for the Lung Association, 
certainly especially for children who are the most vulnerable 
to the effects of air pollution.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Carper. If you just make sure you respond for the 
record, that would be great. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Senator Carper. I think Dr. Upson 
is on the local lung board in New Mexico, and obviously the 
national association will respond and have an opportunity to 
put things into the record here.
    Dr. Upson, your testimony is pretty clear that abundant and 
clear peer-reviewed research demonstrates that air pollution 
harms health. I am quoting there from your testimony. There are 
a number of helpful examples in your testimony. Could you 
expand upon this point for the benefit of those watching who 
may not be able to read all the testimony?
    Dr. Upson. Thank you, Senator Udall. There is an institute 
called the Health Effects Institute, which is a non-profit 
organization which is funded half by worldwide motor vehicle 
industry and half by the EPA. And it reported recently, last 
year, on a very thorough review of the literature on traffic-
related air pollution. They used rigorous guidelines into which 
studies they could accept or not accept.
    They found, many of the studies were not sufficient, they 
were suggestive, but more research needed to be done. However, 
the evidence was sufficient to support a causal relationship 
between exposure to traffic-related air pollution and 
exacerbation of asthma. And that has been found in literally 
hundreds of studies. There is a suggestion that air pollution 
may in fact cause asthma, but we don't have enough strength to 
say that yet. But we do clearly know that asthma exacerbations 
are related to air pollution.
    There was a study done in Southern California which showed 
that the risk of children developing asthma was three times 
that for those living in the six high ozone communities 
compared to the six lower ozone communities.
    Senator Udall. Dr. Upson, today with temperatures in 
Washington in the mid-'90's and a code orange air quality 
alert, we obviously have high air pollution concentrations that 
may be come unhealthy for sensitive groups like people with 
asthma. I have received from many of my constituents in 
Albuquerque, saying, and I want to quote a couple of these, 
``My son is one of the 47,000 New Mexico children with asthma. 
He especially needs pollution-free clean air.'' Another 
Albuquerque resident, ``Please continue making every effort to 
protect environmental legislation, sincerely, someone with 
asthma.'' Another from the northwest part of our State, ``My 
husband is an asthmatic, and support for the current law really 
affect us. Thank you for your work.''
    Then finally, one says, and they wanted to post this to 
you, ``Dear Senator Udall, I have lived with the real life 
effects of air pollution. As a mother, it is difficult to 
witness your child struggle with asthma and feel like there is 
nothing that you can do, because there are millions of children 
around the Country like my child in need of cleaner air. I ask, 
is pollution from industrial sources like power plants, do they 
place my children at risk of asthma attacks?''
    What is your response to these kinds of questions from 
mothers across America?
    Dr. Upson. So the question is the contribution of pollution 
to asthma attacks?
    Senator Udall. Yes.
    Dr. Upson. I think the evidence for that is unequivocal. 
And I don't think anybody disputes that air pollution causes 
asthma attacks. I had asthma, I still have asthma, and as a 
child growing up outside of Buffalo, New York, when the steel 
plants were in full gear, there were nights when I was maybe 
eight or 9 years old, and I would lie in bed struggling just to 
get every breath, and I was afraid to go to sleep, because I 
thought that I would die if I wasn't using every ounce of 
energy I had to breathe.
    So I know what those mothers are talking about. I see it in 
children of friends, and certainly of course in adults with 
COPD, I see the same things.
    Senator Udall. One of the witnesses, Dr. Goodman, used the 
statement, I am not suggesting that air pollutants do not cause 
harm at high concentrations. Studies have shown they 
consistently do. But the point here is that in our communities 
right now, like this high alert here, and like what is 
happening in New Mexico with the wildfire pollution that is 
coming over from Arizona, the levels that we are talking about 
today make a real impact on lungs and have a definite impact on 
more vulnerable populations, isn't that correct?
    Dr. Upson. That is correct, sir.
    Senator Udall. Thank you.
    Senator Carper. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Dr. Goodman, the sentence that was just 
quoted as yours, so let me ask you directly, do air pollutants 
cause harm at air pollution levels observed today?
    Ms. Goodman. There is no consistent evidence that at the 
levels below the current standards that air pollution is 
causing health effects.
    Senator Whitehouse. There is no consistent evidence that 
air pollution is causing health effects today.
    Ms. Goodman. At exposure levels below the current standard.
    Senator Whitehouse. At exposure levels--but you don't say, 
that is not what your testimony says. You have said the issue 
is whether effects occur at air pollution levels observed 
today. Could you answer that question? Do air pollutants cause 
harm at air pollution levels observed today?
    Ms. Goodman. What I am saying is studies that look at 
levels observed today, which are generally below the standards, 
do not observe health effects associated with pollution 
consistently, or clearly.
    Senator Whitehouse. So there are not air pollution effects 
from air pollution levels observed today? That is your 
testimony?
    Ms. Goodman. I am saying the evidence to date doesn't 
clearly show that, yes, that is what I am saying.
    Senator Whitehouse. Are you or your firm paid by the 
American Petroleum Institute?
    Ms. Goodman. Gradient has many private and public sector 
clients, and API is one of them.
    Senator Whitehouse. So you are? The answer is yes?
    Ms. Goodman. Yes.
    Senator Whitehouse. Dr. Thorning, I am not sure I got the 
end of your testimony exactly right, and I tried to find the 
language you used in your written testimony. I didn't see it. 
But it sounded like your recommendation for parents of a child 
suffering from asthma is that the parents get a job. What would 
you tell the parents of the 25,000 Rhode Island kids who have 
asthma who have jobs already about what we could be doing to 
help their kids not have to face these bad air days that keep 
them indoors, not have to have the emergency room visits that 
Dr. Ginda has referred to at Kent County Hospital?
    Ms. Thorning. Senator, the thought I am trying to get 
across is that we need to focus on trying to restart the 
American economy and get job growth going. As the chart that 
Senator Barrasso showed, poverty has the most significant 
impact on children's health.
    Senator Whitehouse. But what about a child who is not in 
poverty? Children get asthma who aren't in poverty, children 
get asthma whose parents work. What do you do for them? They 
are in the hospital, too. They are part of that 25,000.
    Ms. Thorning. I think we need to take care, as we look at 
these existing regulations and future regulations, to be sure 
that the benefits equal the costs. It is pretty clear that the 
benefits EPA has alleged that stem from this Clean Air Act 
amendments are substantially overstated. We need to balance 
everything and----
    Senator Whitehouse. How do you value the cost of a mom who 
has to spend 2 days in the hospital as Dr. Ginda suggested is 
the average length of stay for somebody admitted for asthma? 
Where is that priced in your calculus?
    Ms. Thorning. I just refer to the economic calculations 
that EPA produced with their macroeconomic sims that shows that 
overall benefits, even when you factor in stronger health 
benefits in their case, which is the red bars in my chart, you 
show negative impacts on GDP. Every decrease in GDP means fewer 
jobs, lower----
    Senator Whitehouse. I get the large point. But how does the 
mom who is spending 2 days in the hospital worrying about her 
infant, where does the cost of that factor into your 
calculation? That is what I don't see.
    Ms. Thorning. That is certainly a cost to the individual 
family. I am a macroeconomist thinking about what is best for 
the overall economy. And right now, our key problem is slows 
job growth and a very weak economic recovery. As Senator 
Barrasso's chart shows, poverty is the most significant 
negative impact on children's overall health. And to the extent 
we place regulatory burdens on industry that make it difficult 
for them to invest and hire, we are not going to see recovery. 
And that is going to have negative impact on children's health.
    Dr. Upson. Senator Whitehouse, may I add something to that? 
Senator Whitehouse. Of course.
    Dr. Upson. There is evidence, we know that children in 
poverty have higher rates of asthma. And there is evidence that 
the reason for that is that those children are living in areas 
of higher air pollution, they live closer to busy roads, they 
live closer to industrial plumes. And it is not the poverty 
itself, except that poverty is what keeps them living in areas 
of high air pollution.
    Senator Whitehouse. Ms. Resnik, is there any doubt in your 
mind that there is a correlation between to air pollution and 
asthma?
    Ms. Resnik. My experience as a respiratory therapist is 
that there are many different triggers of asthma. And air 
pollution certainly is one of those triggers.
    Senator Whitehouse. At levels observed today?
    Ms. Resnik. I am not familiar with that particular----
    Senator Whitehouse. Well, at the levels that you actually 
see out in the world today, that is causing these asthma 
reactions?
    Ms. Resnik. Yes, would be a trigger for asthma.
    Senator Whitehouse. Thank you.
    Senator Carper. Thanks, Senator Whitehouse.
    A question if I could for Dr. Upson and for Ms. Resnik. 
Senator Alexander is not here today, Senator Alexander from 
Tennessee. I have introduced legislation, a couple of 
Congresses, actually, but in the last Congress we introduced 
legislation that would reduce air toxics, reduce sulfur dioxide 
and nitrogen oxide emissions to levels that are very similar to 
what the EPA has proposed. Cost estimates of our legislation 
for the average household I believe were less than $2 a month. 
Cost estimate of EPA regulations are expected to be very 
similar.
    Let me just ask both of you, if I could, as mothers and 
health care professionals, would you be willing to spend $2 a 
month to keep your kids from suffering from asthma attacks or 
neurological damage from mercury exposure? Would $2 a month 
outweigh those costs? What do you think?
    Dr. Upson. I think it would. Of course, I am in a 
privileged category and I would be willing to spend more than 
my share of that. In fact, I have. I have put solar panels on 
my house, which will actually save me money in the long run. I 
have insulated my house, I ride a bicycle to work. And I am 
doing what I can to reduce air pollution, and I would certainly 
spend $2 a month more.
    Senator Carper. Thank you. Ms. Resnik?
    Ms. Resnik. As both a mom and a health care professional, I 
would absolutely be willing to pay $2 a month for clean air and 
to protect my children's health.
    Senator Carper. Dr. Goodman, as a toxicologist, could you 
explain for us if you would what happens to a fetus or a child 
when exposed to high levels of mercury, please?
    Ms. Goodman. I am not prepared to talk about mercury today.
    Senator Carper. OK. Would you do that for us on the record? 
Would you followup for the record? That would be much 
appreciated.
    Ms. Goodman. I would be happy to.
    Senator Carper. Anybody else want to take a shot at that? I 
don't know if anybody else is prepared to.
    Dr. Upson. Mercury is a neurotoxin that settles out in the 
atmosphere, particularly in water systems. The primary source 
of mercury in people in the U.S. today is from eating fish 
which has ingested mercury which has fallen from the sky. It is 
a neurotoxin that particularly affects children because of 
their developing brains and nervous systems. And it has been 
shown to decrease cognitive ability.
    Senator Carper. All right, thank you.
    This will be a followup for Dr. Goodman and also for Dr. 
Upson, if I could. When EPA looks at health risks and air 
toxics, my understanding is that the agency does not look at 
the cumulative effect of exposure to many different toxics, but 
looks at them on a one by one basis. Could a child's exposure 
to one toxic, perhaps dioxin or formaldehyde, be amplified by 
exposure to other toxics, such as mercury or arsenic, so that a 
small amount of exposure to one toxic may not seem that 
unhealthy, but when mixed together with a number of others 
could be damaging, maybe even dangerous? Could we be 
underestimating health risks to our children as a result?
    Dr. Goodman, could you respond to that? Then I will ask Dr. 
Upson too.
    Ms. Goodman. It is true that there haven't been many 
studies today where we are looking at these kinds of cumulative 
exposures. But I do think that science is moving in that 
direction. But I would say that when we do a lot of these human 
studies that we are doing observational studies looking at 
people in the real world, you are trying to isolate the effects 
of one particular chemical. But people are exposed to 
everything else that they are exposed to in their everyday 
lives. So often that could be accounted for.
    And another thing to add is that in many of these studies, 
looking at air pollutants, several air pollutants are measured 
and are accounted for in the analysis.
    Senator Carper. Dr. Upson, please, same question.
    Dr. Upson. Yes, sir, I think that you are absolutely right, 
it is very likely that the mix of pollutants is going to be 
found to create more damage than any one individual. The ones 
we look at now are surrogates for the whole mix. If we see a 
lot of those, we might infer there are other pollutants.
    There are problems with that because of dispersal and we 
don't know exactly what those other pollutants are. I think it 
is an area that we need to invest some funding in for research 
to find out how much the danger is and which mix is really the 
worst and what we can do about it.
    Senator Carper. All right. And then just briefly, Dr. 
Upson, it is my understanding that 2010 was one of the hottest 
years on record. Throughout the northeast region of our Country 
it is estimated that we had the most 90 degree plus days in the 
last 25 years recorded in 2010, while in 2009 we had the fewest 
number of 90 degree days plus for the same time interval. At 
the same time, we also had a rise in ozone days in 2010 
compared to 2009. I think the northeast region had something 
like 63 ozone days in 2010 and about 34 in 2009.
    Do you believe the warm weather might have had something to 
do with the difference in ozone days? Do you expect we might 
see more ozone days to come, as our temperatures continue to 
rise?
    Dr. Upson. Yes. Ozone is formed from the action of sunlight 
and heat on nitrogen oxides and reactive hydrocarbons, so that 
as temperatures rise, there is increased ozone formation.
    Senator Carper. Just a followup with Ms. Resnik and I will 
close with this. You mentioned that there was an uptick in 
asthma related to hospital visits in 2010 compared to 2009 at 
Christiana Care. I realize there are many factors that are at 
play, but is it possible that more ozone days could be one of 
those factors?
    Ms. Resnik. As you noted, Senator, there are many reasons 
why that we could have seen an increase in those asthma visits. 
But it is possible that ozone, air pollution could have 
contributed to that.
    Senator Carper. All right, my time has expired. Senator 
Barrasso?
    Senator Barrasso. Thank you, Mr. Chair.
    Just following up, Ms. Resnik, on the previous question, it 
is interesting, because the Centers for Disease Control, they 
reported in their May 2011, just last month in their update on 
asthma in the United States that ``We don't know why asthma 
rates are rising.'' Do you agree with that?
    Ms. Resnik. I am not familiar with that. I would like the 
opportunity to respond in writing.
    Senator Barrasso. Have you done any research in the area as 
to why asthma rates are rising and if so, can you tell us why 
they have risen in the United States? Especially why, in my 
earlier testimony, I talked about how pollution levels have 
significantly declined in this Country over the last number of 
decades.
    Ms. Resnik. I have not specifically done any research in 
that area. That is outside my realm of expertise.
    Senator Barrasso. Thank you.
    Dr. Upson, tell me if you agree that doctors are not sure 
how a person gets asthma.
    Dr. Upson. That is correct. We don't know all the causes. 
There are probably multiple causes of asthma. Certainly 
genetics plays a role. It is, there is more and more evidence 
that environmental exposures play a role. We don't know what 
causes asthma, that is correct. We do know that asthma 
exacerbations or asthma attacks are caused by air pollution.
    Senator Barrasso. I think we are pretty clear on the 
triggers of an asthma attack for somebody who is already 
asthmatic. The question is, why is that someone may become 
asthmatic. And you talked about the genetic issue as one.
    Dr. Upson. Yes.
    Senator Barrasso. OK, thank you. Thank you, Mr. Chairman.
    Senator Carper. Senator Udall--Dr. Udall.
    Senator Udall. Dr. Barrasso just asked the question, why 
asthma rates are rising in the U.S. Dr. Upson, do you have an 
opinion on that?
    Dr. Upson. I don't know why they are increasing. I think 
there is certainly evidence, suggestive, not confirmatory yet, 
that air pollution is related to the development of asthma. As 
I said, we know that it triggers asthma, and everyone, I think, 
has been in agreement there. I think it is an area that is ripe 
for more research. We are trying to find out why, but we don't 
have the answer.
    Senator Udall. Dr. Ginta, do you have an opinion on that?
    Mr. Ginta. Thank you, Senator Udall. Within my written 
testimony, I have an article that I published last month on 
diesel and chronic respiratory disease, that would be in your 
packets. I refer to that on page 17 of the article, that there 
is a connection they are looking at between some chemical 
messengers called interleukens, particularly interleuken 8, and 
then another one called granulocyte macrophage colony 
stimulating factor, which are just a couple of genetic 
possibilities that they are looking at. These inflammatory 
mediators are stimulated by air pollution, particularly, and 
they are making that link. So that is the background question 
that we look at in the clinical setting, this missing piece of 
environment, are we adequately addressing it when we can 
continue to see clinical cases of asthma increasing and lack of 
control in so many patients where we have really good drugs to 
control it, even when they are accessible.
    Senator Udall. Thank you. Dr. Goodman, the American Lung 
Association and the American Thoracic Association, the American 
Society of Pediatrics, all groups of medical doctors and 
researchers, are telling us that air pollution in American 
cities today is harmful to public health. Your statement I read 
earlier continue with the point, the issue is whether effects 
occur at air pollution levels observed today. That seems to 
disagree with the medical groups' reading of the evidence.
    Are you saying we have no problem with air pollution in 
American cities today?
    Ms. Goodman. What I am saying is there have been many, many 
studies on air pollution and health effects. And if you look at 
certain studies, you will see that some of them report that 
certain levels of pollutants are associated with health 
effects. But then when you look at other studies, you will see 
that that is not the case. And the issue is, there are many----
    Senator Udall. No, that isn't the question. Let me get you 
focused on the question here. The question I asked you is, are 
you saying, are you saying we may have no problem with air 
pollution in American cities today? I am talking about the air 
pollution in American cities today. I am not talking about the 
selective pulling out of information that you are doing from 
studies. Your statements today seem to suggest that you have no 
problem with the pollution levels in American cities today.
    Ms. Goodman. To answer that question, you really have to 
rely on the scientific evidence. And what----
    Senator Udall. Then the scientific evidence right now is 
that the standards are exceeded in American cities today. So is 
there a problem with public health on those standards being 
exceeded? Most major American cities, like is occurring here in 
Washington today, the standards are exceeded. Is that a problem 
for public health?
    Ms. Goodman. I really don't feel prepared to answer that 
today. Because really, what I am prepared to talk about is 
whether there are health effects associated with levels in the 
studies that have been published below the current standards. 
And there aren't.
    Senator Udall. Well, the problem that we have today in our 
American cities is that the standards that the EPA has put into 
place are being violated. And we are having asthma attacks and 
we are having all sorts of health consequences as a result of 
that, as these medical doctors are telling us and medical 
doctors here on the panel. That is what I wanted you to comment 
on, but I guess you are not able to comment on that. You would 
rather comment on picking out studies and arguing with small 
points with them.
    With that, Senator Lautenberg, why don't you go to your 
questioning? Excuse me, I didn't see Senator Vitter. Senator 
Vitter, you are in line here. Please.
    Senator Vitter. Sure, thank you.
    It seems to me we could cut through a lot of this and 
similar debates if we had confidence in good, sound science 
that wasn't politicized. So a big part of my goal in a lot of 
this work has been to demand that we focus on sound science and 
basing our decisions, legislative and administrative decisions, 
on that sound science.
    I have to tell you right now, I have absolutely no 
confidence in the science coming out of the EPA. As many of you 
may be aware, I pushed a National Academy of Sciences report on 
one issue the EPA was dealing with, formaldehyde, and finally 
got them to agree to doing that. And the report came out about 
a month ago, and it documented very clearly that the report and 
the recommendations EPA had made were not sound, were not based 
on science, were not credible. And this isn't from some right-
wing industry group, this is from the National Academy of 
Sciences.
    I wanted to ask all of you, starting with Dr. Goodman, are 
you aware of that National Academy of Sciences report and that 
issue? What do you think it says about the larger issue of 
getting sound science as a basic for action, including at EPA?
    Ms. Goodman. I am aware of that report, and I actually 
discussed it in my testimony today. As I said, I feel that the 
points brought up in that report were not only relevant for 
formaldehyde, but for many other EPA assessments, including 
their assessments of the air pollutants that are addressed by 
the Clean Air Act.
    Senator Vitter. What sort of systemic improvements at EPA 
do you think it suggests?
    Ms. Goodman. I think it suggests that EPA needs to have a 
framework for evaluating the weight of evidence, looking at 
consistency within and among studies, looking at the strengths 
and limitations of studies, and not giving more weight to 
certain studies over others based on their results, but only 
weighing studies based on the methods that are used.
    Senator Vitter. OK. Any others like to comment on that?
    Dr. Upson. The EPA works with CASAC, the Clean air 
Scientific Advisory Committee, and I had some colleagues who 
were on that panel, and they used rigorous standards to 
evaluate their studies. I don't know if that has been true in 
the past, but I think that is true now. And I think there are 
other studies, as the one I mentioned on traffic-related air 
pollution, that uses very rigorous guidelines and comes to 
similar conclusions as the EPA. I agree that sound science is 
the basis for all this.
    Senator Vitter. I know the case study I am talking about is 
not Clean Air related, I realize it is a different category. 
But it does go to the broader issue. Are you aware of this 
National Academy formaldehyde study and the critique it 
included about EPA conclusions?
    Dr. Upson. I am not familiar with it.
    Senator Vitter. Anyone else like to comment?
    Mr. Ginta. Senator, I am not familiar with that National 
Academy of Sciences thing, but there are other studies from 
other countries, international studies, six Italian studies, 
that really are consistent with the conclusions. Mexico City 
had a really good study where they looked at lung radiology and 
pulmonary function in children chronically exposed to air 
pollution. They analyzed chest x-rays of 249 clinically healthy 
children, 230 from Mexico City, which is a heavily polluted 
area, chronically exposed to levels that are greater than our 
national ambient air standards for PM 2.5. They had a control 
group from the other city nearby that wasn't exposed.
    But what they found was striking. They had moderate to 
severe hyperinflations, which was air trapping, that we see in 
asthmatics, in 1 child from the control city and 151 out of 
230, or 65.6 percent of the polluted city. They had additional 
linear markings in the lungs consistent with inflammation that 
was mild to moderate, in 121 of the 230 children, which is 52.6 
percent in the air pollution cities. That was in Mexico City.
    Italian studies have looked at six Italian cities. They 
have come up with a similar thing, that air pollution is a 
trigger for wheezing and gastrointestinal disturbances in 
children zero to 2 years of age. So I would just offer that 
there are EPA-related, to my knowledge, but as I evaluate the 
body of literature out there, they appear to be well-designed, 
in my opinion. Not being an epidemiologist, coming back.
    There is also a meta-analysis that was done in 2010 that 
looked at, it was really an analysis of the studies. Now, 
certainly there can be external validity issues if somebody 
doesn't include the right papers, or excluded papers that 
didn't say what they wanted them to say. But you go by the 
quality of the researchers, hopefully, that picked those 
studies.
    They selected 36 studies that were out there. And they were 
conclusive that short-term effects of PM 2 and NO2 in 
respiratory health among children and asthma-like symptoms were 
consistently related.
    The last thing I would point out would be related to our 
national air quality standards as far as ambient air, because 
that came up before. There is a paper in your packet that I 
wrote last May, or this past May, there were sub-ambient levels 
of air pollution associated with asthmatic symptoms in children 
in the study from Boston University. I can tell you, it was 
O'Connor and Ness from Boston University School of Medicine. 
They looked at data from 861 children with persistent asthma in 
seven urban U.S. communities. What they found, they compared 
asthma symptom reporting, pulmonary function results and 
barometric pollution data. They found that higher levels of NO2 
and PM 2.5 were associated with asthma-related missed school 
days and higher concentrations of NO2 with asthma symptoms. It 
was interesting that almost all the pollutant levels in those 
studies that they looked at in that multi-city group were below 
the National Air Ambient Quality Standards, which speaks to the 
upwind considerations and the fact that air pollution isn't 
limited to State borders, and it does travel, and weather 
conditions certainly do affect it, temperature inversions, 
where it is trapped low to the ground, where all of a sudden 
one area can suddenly be exposed to a higher concentration than 
you would normally measure over a cumulative period of time 
with a reference site.
    Senator Vitter. Thank you, Mr. Chairman, if I can just warp 
up, my main point is the following. I appreciate those studies 
and that testimony. I am looking at all of your testimony.
    In general, though, the problem is, as members of the 
Senate, Members of Congress, we can't review the literature 
exhaustively on any given public health issue. We generally 
should be able to depend on the relevant Federal agency to do 
that, and make a completely unbiased, completely scientific 
recommendation based on that purely objective review of the 
literature.
    I can tell you just for me, when it comes to EPA, I have 
absolutely no faith that that is done in a sound science-based 
way, none. The episode I have the most personal involvement in 
is this National Academy of Sciences report, which I pushed 
for, which unfortunately bore that out.
    So I think it is in all of our interest to demand rigorous 
sound science in Federal agencies, no matter who the 
Administration is, to give the public, Members of Congress, 
others, the confidence we need to know that this is science-
based and not political agenda-based. Thank you.
    Senator Udall.
    [Presiding] Senator Lautenberg.
    Senator Lautenberg. Thanks, Mr. Chairman. I am sorry, I 
apologize for not having been here sooner, because this is a 
discussion that I find critical. And we have your statements, 
and they are under review by my staff.
    But I speak as an expert. I have a grandson who has asthma. 
And I know what happens when there is a code orange or that the 
air is polluted. And my daughter, his mother, when he goes to, 
he is athletic, and when he goes to play in a game or a meet or 
something like that, the first thing my daughter does is find 
out where the nearest clinic is, so that if he starts wheezing, 
she knows she has to get moving.
    My sister, who had asthma, and carried a small, I will call 
it a respirator, that she could plug into the lighter hole in 
the car, that could help her breathe easier. She was at a 
school board meeting one night, to which she was elected in New 
York, and she felt an attack coming on, and started to go for 
the car and collapsed in the parking lot and never recovered. 
Asthma.
    So we can discuss failures, but we also have to look at the 
statistics, what does it take? Are more kids getting sick from 
asthma? Are the attacks more frequent? We have more diseases 
that challenge child existence. I hear this condemnation of 
EPA, and know darned well that EPA funding is always a problem. 
What happens is if you just register disbelief, maybe that 
helps make the case. But the statistics about families and 
about children and watching them get sicker, I have a child, a 
grandchild who also has diabetes. By the way, I have 10 
grandchildren, we do have a lot of healthy ones in there. But 
the other two survive remarkably.
    So I want to say that in 1990, both of our parties came 
together to strengthen the Clean Air Act and protect our 
children from dangerous air toxics, like mercury, acid, gases. 
Then the big polluters put their lawyers and lobbyists to work 
spending millions of dollars to prevent EPA from implementing 
the law and setting rules to clean up the largest sources of 
deadly emissions.
    That is unacceptable that many rules on air toxics are now 
more than a decade overdue and children are paying the price, 
while the industries keep stalling. Just think about what is 
spewing into the air from power plants and cement plants. First 
we had mercury, which is brain poison for children. There are 
dioxins which cause birth defects, lead, which damages nervous 
systems, reduces children's intelligence levels, arsenic, 
causes cancer.
    After years of delay by the Bush administration, the Obama 
administration is finally getting the job done, and in a way 
that treats everyone fairly. The EPA wants to hold all 
companies to the standards used at the cleanest plants. But big 
polluters are up to their old tricks and they are claiming that 
cleaning up their act is going to be too costly.
    Ask the parent of a child who is suffering from asthma or 
other diseases associated with chemicals in the atmosphere, 
asthma, et cetera. It is nonsense. These company, competitors, 
have already invested in this technology and they are 
succeeding.
    So we want to be clear. EPA is doing the right thing when 
it puts limits on the largest sources of mercury and other air 
toxics. EPA estimates that its rules on cement plants will 
prevent as many as 2,500 premature deaths and 17,000 asthma 
outbreaks each year. And we don't want to forget another fact, 
that children are not simply small adults. That 
proportionately, children breathe more air than adults, because 
their bodies are growing, it means they are exposed to more air 
toxics and smog than adults are. Since a child's lungs, and you 
may have discussed this, so forgive me if it is repetitions, it 
says, a child's lungs are still developing; substances that 
might harm adults can seriously damage a child's health.
    So that is why we have a very special responsibility to our 
children to make sure they always have clean, safe air to 
breathe. Tragically, this isn't the promise that we are keeping 
to the next generation. Recent data shows two-thirds of all 
children in the United States live in areas where the air is 
fouled by soot, smog, other pollutants that can cause asthma 
attacks. And nationally now, almost one in ten children suffers 
from asthma. That is according to new research from the Centers 
for Disease Control.
    New Jersey, one out of 12 of the residents has this lung 
disease. But the rate is far higher in the area called Newark, 
Newark's east ward, where one in four residents has asthma. And 
the east ward is near the region's port, airport and has heavy 
truck traffic, with drivers idling for hours in residential 
neighborhoods. Shockingly, improving children's health doesn't 
appear to be sufficient motivation for some of the other side 
of the aisle. Earlier this year, the House Republicans tried to 
stop EPA from making it harder for polluters to foul our air. 
And we defeated those efforts. But we have to continue 
remaining vigilant if we want to continue protecting the health 
of America's children.
    So I have introduced legislation to reform TSCA, you all 
know what TSCA is, the Toxic Substances Control Act, to require 
all chemicals to be tested and proven safe for their intended 
use before they get into product, before they make it into 
other things.
    What might be the impact if we could do some reforming for 
TSCA? What effects could it have on air quality, Ms. Upson?
    Dr. Upson. Senator Lautenberg, your question is the impact 
of reducing toxic emissions of the health of the people?
    Senator Lautenberg. Right.
    Dr. Upson. I think there is no question that reducing toxic 
emissions will improve the health of people, especially people 
with respiratory conditions, people with asthma, adults with 
emphysema or bronchitis, cystic fibrosis, any number of 
respiratory conditions are worsened when people are exposed to 
air pollution and other toxins.
    Senator Lautenberg. I am, permit this immodesty, but I am a 
cancer sponsor of no smoking in airplanes. And it has made a 
substantial difference. It is hard to imagine what it would be 
like to get into an airplane today, smoke-filled cabin, who 
would tolerate it. So when we hear so much about the cost of 
companies to reduce their emissions, we don't hear enough about 
the benefits of cleaning up pollution sources and the costs 
that are saved, in addition to the anguish and pain that is put 
upon people who are affected by it. How does cleaning up 
pollution generate tangible economic benefits for the public as 
a whole? Does it matter?
    Dr. Upson. And your question is, the economic benefit?
    Senator Lautenberg. Yes, economic benefits.
    Dr. Upson. I think the major economic benefit is in 
decreased visits to the emergency Department, decreased 
hospitalizations, fewer days absent from school, fewer days 
absent from work taking care of children who are home from 
school. And you mentioned your clean air from tobacco 
legislation. I have worked a lot on that in New Mexico. And one 
of the consequences that we saw, a benefit that we weren't 
anticipating from that legislation, in areas and towns and 
cities that have gone smoke-free, there have been 17 studies 
now, all 17 of those studies show a decreased in heart attack 
or acute myocardial infarction after those laws went into 
place.
    In one town, they reversed that law and the rates of 
myocardial infarction went back up to the baseline level within 
2 weeks.
    We weren't anticipating that benefit. This is my opinion, 
that we would see benefits that we are not even anticipating if 
we decrease air pollution.
    Senator Lautenberg. The response that you might get here 
could be bah humbug.
    Thank you very, very much for your testimony.
    Senator Udall. Senator Lautenberg, thank you for that 
excellent statement. We are now at the close of the hearing, 
and I want to thank all of the witnesses for their statements. 
You have given us some very good information and there has been 
some very compelling testimony.
    Senators will have 2 weeks to submit questions and material 
for the record. I ask that our witnesses promptly respond to 
these questions. These answers will become part of the hearing 
record. Again, I appreciate the witnesses' time and attendance. 
With that, the hearing is adjourned.
    [Whereupon, at 11:50 a.m., the committees were adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
